~~
( t­
.....1.
  +...4....ic..."s.
      ;.~"'..ia	
                       DEPARTMENT OF HEALTH
                                     HEALTH &. HUMAN SERVICES	
                                            &. HUMAN SERVICES                                                  Office of
                                                                                                               Office of Inspector
                                                                                                                         Inspector General


                                                                                                               Washington. D.C. 20201
                                                                                                               Washington, D.C. 20201



                                                                    JUN·-
                                                                    JUN.- 33 Z009

                                                                             2009


               TO:              Charlene Frizzera
                                Acting Administrator
                                Centers for Medicare &
                                                     & Medicaid Services


               FROM:            Daniel
                                Daniel        R.
                                       R. Levinson      ~    t.~
                                                        Levinson ~ t.~
                                Inspector General


               SUBJECT:         Review
                                Review of
 of Medicaid Personal Care Services Claims
                                                                              Claims Made by Providers in
                                New York City (A-02-07-01054)


               Attached is an advance copy of of our
                                                 our final
                                                     final report on our
                                                                     our review of
                                                                                 ofpersonal care services claims
               made by providers in New York
                                           York City
                                                  City under
                                                       under the New York
                                                                       York State
                                                                              State (the
                                                                                    (the State)
                                                                                         State) Medicaid
                                                                                                Medicaid program.
               We will issue this report to the State within 5 business days.

               Our    objective
               Our objective          was to
                             was to determine if 
determine if the State properly claimed Federal Medicaid reimbursement

               for personal care services claims submitted by            by 100 providers
                                                                                 providers in New
                                                                                              New York
                                                                                                  York City.
                                                                                                       City. Our audit
               period covered January 1,               2004, through
                                                    1,2004,  through December 31,    2006.
                                                                                 31,2006.

              The State improperly claimed Federal Medicaid reimbursement          reimbursement for
                                                                                                   for some
                                                                                                       some personal care services
              claims
              claims submitted by providersby
                          submitted             providers
                                            in New              in New York City. Of the 100
                                                   York City. Of
                           100 claims in our random sample, 80
              claims complied with Federal and State requirements,       requirements, but 18 claims
                                                                                               claims did
                                                                                                        did not.
                                                                                                            not. We could not
              determine
              determine if
    if the remaining two claims, which involved services under the State's         State's Consumer
                                                                                                                      Consumer
              Directed Personal Assistance  Assistance ProgramProgram (CDP    AP), complied with Federal and State requirements.
                                                                        (CDPAP),
              Based on our sample results, we estimate            estimate that the State improperly claimed $275,327,274 in
              Federal Medicaid reimbursement.

              This overpayment occurred
                                 occured because
                                          becausethe
                                                   theState
                                                       Statedid
                                                            did not
                                                                not adequately
                                                                     adequatelymonitor
                                                                                 monitor New
                                                                                         New York
                                                                                               York City's
                                                                                                     City'S
              personal care services program for
                                             for compliance
                                                 compliance with
                                                              with certain
                                                                    certain Federal
                                                                            Federal and
                                                                                    and State
                                                                                        State requirements.

              We recommend that the State:
                                    State:

                       •	 refund
                       .   refund$275,327,274
                                  $275,327,274to
                                               to the
                                                  the Federal
                                                       FederalGovernment,
                                                               Governent,



                       •	 work
                       .   work  withthe
                               with    theCenters
                                           Centersfor
                                                   for Medicare
                                                       Medicare && Medicaid
                                                                    MedicaidServices
                                                                             Servicesto
                                                                                      to resolve
                                                                                         resolve the
                                                                                                  thetwo
                                                                                                      twoCDPAP
                                                                                                          CDP AP

                           claims,
Page 2 – Charlene Frizzera


       •   improve its monitoring of New York City’s personal care services program to ensure
           compliance with Federal and State requirements, and

       •   promulgate specific regulations related to claims submitted under the CDPAP.

In its comments on our draft report, the State disagreed with our first recommendation and
agreed with our remaining recommendations. The State also disagreed with many elements of
our findings. The State indicated that the claims in our sample were “substantially in
compliance” with Federal regulations and that Department of Health social services districts
throughout the State strive to meet the State’s regulations. In addition, the State provided us with
additional documentation for certain sample claims. After reviewing the State’s comments on
our draft report and additional documentation, we revised our findings and modified our
statistical estimates accordingly.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through e-mail at James.Edert@oig.hhs.gov. Please refer to report number A-02-07-01054 in
all correspondence.


Attachment
                                                                                                     0ftIce or
                                                                                                     Ofice   orlnapector
                                                                                                                 Inspor Genral
                                                                                                                           General
,._'~.                                                                                               omc
                                                                                                     0ftIc8orOfAudit
                                                                                                                AuditservIces
                                                                                                                      S8rv1l:11a



(.: DEAR OFBETB & HI SI~                                                                             -Region IIII
                                                                                                     -Region

                                                                                                     Jacob K. Jayll
                                                                                                     JacobK.  Javllll Federal
                                                                                                                      Federal Building

                                                                                                                              Building
                                                           JUN - 8 2009

                                                                                                      28  FI.r.1Plua
                                                                                                      28 FtKI8r81 Plu
Report Number: A-02-07-01054
       Number: A-02-07-0l054                                                                          N..
                                                                                                      ....Yor
                                                                                                          YClIkoNY  102 ..
                                                                                                                N'l10278

Richard
Richard F.
        F. Daines, M.D.
           Daies, M.D.
Commissioner
New York State
           StateDepartment ofHealth
                 Deparent of Health
  th
14 Floor,
14th Floor,Corning
           Cornng Tower
Empire State
        StatePlaza
              Plaz
Albany, New York   12237
             York 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health
Enclosed is the U.S. Deparent of                       Health andand Human  Services (HHS),
                                                                     Human Services   (HHS), Office   ofInspector
                                                                                               Offce ofInspector

General (OIG), final report entitled "Review of Medicaid Personal Care Services Claims Made
General (OIG), final report entitled "Review of

byProviders
by  Providers        in City."
            in New York  NewWe York      City."
                                will forward         We
                                             a copy of 
   will forward a copy of this report to the HHS action
official noted on the      the following page .for       .forreview
                                                              reviewand
                                                                     andany
                                                                         anyaction
                                                                             actiondeemed
                                                                                     deemednecessary.
                                                                                              necessar.

The HHS
    HHS action
        action official willmake
               offcial wil  makefiiial
                                 fiilal determination
                                        determination as to actions taken onall
                                                                    taen on  allmatters
                                                                                matters reported.
                                                                                         reported.
We request that you respond to this official within 30 days from the date of this letter.
We request that you respond to this offcial within 30 days from the date of 
     letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final detennination.
                     determination.

Pursuant
Pursuant to theto  theofFreedom
                Freedom  
         Inormation Act,S
                                ofInformation          U.S.C.§§552,
                                                Act, 5U.S.C.    552,OIG
                                                                     OIGreports
                                                                           reports generally
                                                                                    generally are
                                                                                              are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act.       Accordingly, this
      Act. Accordingly,           report wil
                              ths report willbe
                                              beposted
                                                posted on
                                                        on the Internet at
                                                                        at http://oig.hhs.gov.
                                                                           htt://oig.hhs.gov.

If
If you have any questions or comments about this report, please do not hesitate to call me; or
contact John Berbach,
             Berbach, Audit
                       Audit Manager,
                             Manager, atat (518)
                                           (518) 437-9390,
                                                  437-9390, extension
                                                            extension 228,
                                                                      228, or
                                                                           or through   e-mail at
                                                                               though e-mail
John.Berbach@oig.hhs.gov.     Pleaserefer
John.Berbach~oig.hhs.gov. Please     referto
                                           to report
                                               reportnumber  A-02-07-01054ininall
                                                     number A-02-07-01054       allcorrespondence.
                                                                                    correspondence.

                                                                         Sincerely,

                                                                    ~f,
                                                                    ~t. Erk

                                                                        Etkd:
                                                                        James P. Edert
                                                                        Regional Inspector General
                                                                          for Audit Services


Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF MEDICAID
 PERSONAL CARE SERVICES
CLAIMS MADE BY PROVIDERS
    IN NEW YORK CITY




                    Daniel R. Levinson
                     Inspector General

                        June 2009
                      A-02-07-01054
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) administers the Medicaid
program. Within DOH, the Office of Long Term Care oversees the personal care services
program. Each county’s social services district is responsible for authorizing personal care
services, arranging service deliveries, and monitoring the personal care services program. In
New York City (comprising Bronx, Kings, New York, Queens, and Richmond counties), the
Human Resources Administration is responsible for the personal care services program.

Pursuant to 42 CFR § 440.167, personal care services are generally furnished to individuals in
their homes and not residing in hospitals, nursing facilities, intermediate care facilities for the
mentally retarded, or institutions for mental diseases. Medicaid beneficiaries are authorized for
personal care services by a physician in accordance with a plan of treatment or with a service
plan approved by the individual State. Pursuant to the State’s regulations: (1) personal care
services must be authorized and reauthorized based on a physician’s order, nursing assessment,
and social assessment; (2) a physician, physician’s assistant, or nurse practitioner (medical
professionals) must examine the beneficiary within 30 days before the physician’s order is
signed; and (3) the delivery of personal care services must be supervised by a registered
professional nurse. Examples of personal care services include cleaning, shopping, grooming,
and bathing.

OBJECTIVE

The objective of our review was to determine if the State properly claimed Federal Medicaid
reimbursement for personal care services claims submitted by 100 providers in New York City.
Our audit period covered January 1, 2004, through December 31, 2006.

SUMMARY OF FINDINGS

The State improperly claimed Federal Medicaid reimbursement for some personal care services
claims submitted by providers in New York City. Of the 100 claims in our random sample, 80
claims complied with Federal and State requirements, but 18 claims did not. We could not
determine if the remaining two claims, which involved services under the State’s Consumer
Directed Personal Assistance Program (CDPAP), complied with Federal and State requirements
and are setting aside those claims for resolution by CMS and the State.




                                                  i
Of the 18 noncompliant claims, 1 contained more than one deficiency:

   •   For eight claims, a medical professional did not examine the beneficiary within 30 days
       before the order for personal care services was signed.

   •   Four claims contained no nursing assessment.

   •   For four claims, there was no nursing supervision.

   •   For three claims, there was no physician’s order.

Of the 100 claims in our sample, 2 were CDPAP claims for which there were no applicable
nursing assessments. These two claims are being set aside for resolution by CMS and the State
because it is unclear whether State requirements regarding nursing assessments (18 NYCRR
§ 505.14) apply to CDPAP claims.

These deficiencies occurred because the State did not adequately monitor New York City’s
personal care services program for compliance with certain Federal and State requirements.

Based on our sample results, we estimate that the State improperly claimed $275,327,274 in
Federal Medicaid reimbursement during our January 1, 2004, through December 31, 2006, audit
period.

We conducted interviews with 65 of the 100 sampled beneficiaries. Of the 65 beneficiaries
interviewed, 40 identified quality of care problems with their personal care services aide,
problems with the personal care services agency, or other problems. These include, but are not
limited to, physical abuse or threats of physical abuse, theft, engaging in unrelated activities, and
abandonment.

RECOMMENDATIONS

We recommend that the State:

       •   refund $275,327,274 to the Federal Government,

       •   work with CMS to resolve the two CDPAP claims,

       •   improve its monitoring of New York City’s personal care services program to ensure
           compliance with Federal and State requirements, and

       •   promulgate specific regulations related to claims submitted under the CDPAP.




                                                  ii
NEW YORK STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State disagreed with our first recommendation (financial
disallowance) and agreed with our remaining recommendations. The State also disagreed with
many elements of our findings. The State indicated that the claims in our sample were
“substantially in compliance” with Federal regulations and that DOH social services districts
throughout the State strive to meet the State’s regulations. In addition, the State provided us with
additional documentation for certain sample claims.

After reviewing the State’s comments on our draft report and additional documentation, we
revised our findings and modified our statistical estimates accordingly. The State’s comments
appear in their entirety as Appendix D.




                                                iii
                                                     TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program..............................................................................................1
            New York State’s Medicaid Program ................................................................1
            New York State’s Personal Care Services Program ..........................................1
            New York City’s Personal Care Services Program ...........................................2
            Federal and State Requirements Related to Personal Care Services .................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
            Objective ............................................................................................................3
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................5

          MEDICAL PROFESSIONAL DID NOT EXAMINE THE BENEFICIARY
           WITHIN 30 DAYS BEFORE THE ORDER FOR SERVICES
           WAS SIGNED (MEDICAL RECORD DOES NOT SUPPORT
           EXAMINATION DATE) .....................................................................................6

          NO NURSING ASSESSMENT ..............................................................................6

          NO NURSING SUPERVISION ..............................................................................6

          NO PHYSICIAN’S ORDER ...................................................................................6

          CONSUMER DIRECTED PERSONAL ASSISTANCE
           PROGRAM CLAIMS...........................................................................................7

          CAUSE OF UNALLOWABLE CLAIMS...............................................................7

          ESTIMATION OF THE UNALLOWABLE AMOUNT ........................................7

          RECOMMENDATIONS.........................................................................................7

          NEW YORK STATE COMMENTS AND OFFICE OF
          INSPECTOR GENERAL RESPONSE ...................................................................7
             Medical Professional Did Not Examine the Beneficiary Within
              30 Days Before the Order for Personal Care Was Signed ..............................8
             No Nursing Assessment.....................................................................................8
             No Nursing Supervision.....................................................................................9
             No Physician’s Order.........................................................................................9


                                                                     iv
OTHER MATTER: BENEFICIARY-IDENTIFIED PROBLEMS
 WITH PERSONAL CARE SERVICES .....................................................................10

        PERSONAL CARE AIDE ENGAGED IN UNRELATED ACTIVITIES ...........10

        THEFT OF PROPERTY........................................................................................10

        PHYSICAL ABUSE OR THREATS OF PHYSICAL ABUSE............................11

        BENEFICIARY ABANDONMENT.....................................................................11

APPENDIXES

        A – FEDERAL AND STATE REQUIREMENTS RELATED TO PERSONAL CARE
             SERVICES

        B – SAMPLE DESIGN AND METHODOLOGY

        C – SAMPLE RESULTS AND ESTIMATES

        D – NEW YORK STATE COMMENTS




                                                            v
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

New York State’s Medicaid Program

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within DOH, the Office of Medicaid Management
administers the Medicaid program. DOH uses the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system, to process and pay
Medicaid claims, including personal care services claims. The Federal Government’s share of
costs is known as the Federal medical assistance percentage (FMAP). From January 1, 2004, to
June 30, 2004, the FMAP in the State was 52.95 percent, and from July 1, 2004 through
December 31, 2006, the FMAP was 50 percent.

New York State’s Personal Care Services Program

The State’s personal care services program is operated by DOH’s Bureau of Medicaid Long
Term Care. Although DOH is responsible for the program, each county’s social services district
and New York City (comprising Bronx, Kings, New York, Queens, and Richmond counties) is
responsible for authorizing personal care services, arranging service delivery, and monitoring the
personal care services program. Title 18 § 505.14 of the New York Compilation of Codes,
Rules, & Regulations (NYCRR) defines personal care services as some or total assistance with
personal hygiene, dressing and feeding, nutritional and environmental support functions, and
health-related tasks. Such services must be essential to the maintenance of the beneficiary’s
health and safety within his or her own home, as determined by the social services district in
accordance with the regulations of DOH; ordered by the attending physician; based on an
assessment of the beneficiary’s needs; provided by a qualified person in accordance with a plan
of care; and supervised by a registered professional nurse.

The State operates two levels of personal care services:

       • Level I services are limited to the performance of environmental and nutritional
         functions, including dusting, vacuuming, dishwashing, shopping, laundry, and meal
         preparation, and




                                                1
         • Level II services include Level I services and personal care functions such as assisting
           beneficiaries with bathing, grooming, and toileting. 1

New York City’s Personal Care Services Program

In New York City, the Human Resources Administration (HRA) oversees the personal care
services program. HRA provides case management through nine Community Alternative
Services Agency offices. Services are provided through contracts with home care/personal care
agencies.

To receive personal care services, a Medicaid beneficiary must have a physician’s order. When
HRA receives the physician’s order, a case record is established and a case worker is assigned to
the beneficiary. An initial authorization for services is based on the physician’s order, a social
assessment, and a nursing assessment. Authorizations for personal care services are required to
be completed before the initiation of services. HRA authorizes all services for periods of up to
12 months, except 24-hour continuous care, which is authorized for only up to 6 months. The
reauthorization process generally includes the same procedures as the initial authorization;
however, Level I services do not require a nursing assessment if the physician’s order indicates
that the beneficiary’s medical condition is unchanged. After completing the authorization
process, an HRA case worker contacts a local personal care services provider so it can assign a
personal care aide unless the beneficiary hires his or her own aide under the State’s Consumer
Directed Personal Assistance Program (CDPAP). 2

Federal and State Requirements Related to Personal Care Services

The State and HRA must comply with certain Federal and State requirements in determining and
redetermining whether beneficiaries are eligible for personal care services. Pursuant to section
1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), personal care
services must be: (1) authorized for an individual by a physician in a plan of treatment or in
accordance with a service plan approved by the individual State; (2) provided by an individual
who is qualified to provide such services and who is not a member of the individual’s family;
and (3) furnished in a home or, at the State’s option, in another location.




1
 New York regulations reference three levels of service (Level I, Level II, and Level III), but the State’s current
personal care services program provides only Level I and Level II services.
2
 Section 365-f of the New York Social Services Law established CDPAP. Under CDPAP, the beneficiary may hire
his or her own aide, train the aide according to the beneficiary’s personal preferences, supervise and direct the
provision of service, and fire the aide. Although the program has been in effect since 1996, it was not defined under
the State plan until Amendment 07-32 was approved by CMS on April 8, 2008, with an effective date of July 1,
2007. The State plan notes that the eligibility, assessment, and prior authorization of services mirror those of the
personal care services program. The State has not promulgated specific State regulations applicable to CDPAP.



                                                           2
Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Section C.1.c. of Attachment A of the Circular provides that to be allowable, costs must be
authorized or not prohibited by State or local laws or regulations.

Title 18 of NYCRR § 505.14 establishes requirements for the State’s personal care services
program. These requirements include that a physician, physician’s assistant, or nurse
practitioner (medical professionals) complete the order for personal care services within
30 calendar days of conducting a medical examination and that social and nursing assessments
be prepared as part of the authorization and reauthorization of personal care services.
Authorization for Level I and II services must be based on an assessment of the beneficiary’s
appropriateness for other services that are medically necessary and that HRA “reasonably
expects can maintain the patient’s health and safety in his or her home . . . .” 3 Finally, persons
providing Level I and II personal care services are subject to nursing supervision. Appendix A
contains the specific Federal and State requirements related to personal care services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine if the State properly claimed Federal Medicaid
reimbursement for personal care services claims submitted by 100 providers in New York City.

Scope

Our audit period covered January 1, 2004, through December 31, 2006. Our audit universe
consisted of 42,660,297 claims, totaling $4,962,396,539 ($2,499,866,017 Federal share),
submitted by the 100 New York City providers.

During our audit, we did not review the overall internal control structure of the State or the
Medicaid program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at DOH’s offices in Albany, New York; at the State MMIS fiscal agent
in Rensselaer, New York; at HRA’s offices in New York City; and at 53 personal care providers
in New York City.

Methodology

To accomplish our objective, we:

        • reviewed applicable Federal and State regulations and guidelines;

        • held discussions with DOH and HRA officials to gain an understanding of the personal
          care services program;
3
 Some examples of these services include long-term home health services and personal emergency response
services.


                                                       3
         • used providers’ correspondence addresses and county codes on the MMIS, which
           identified 100 personal care providers in New York City;

         • ran computer programming applications at the MMIS fiscal agent that identified
           42,674,738 personal care services claims, totaling over $4.9 billion ($2.5 billion
           Federal share) for the 100 New York City providers;

         • eliminated from our programming applications all New York City personal care
           services claims identified in an August 2007 Office of the New York State Comptroller
           audit report; 4

         • determined that our revised sampling frame contained 42,660,297 claims, totaling
           $4,962,396,539 ($2,499,866,017 Federal share), made by the 100 New York City
           providers;

         • selected a simple random sample of 100 claims from the population of 42,660,297
           claims, and

         • estimated the unallowable Federal Medicaid reimbursement paid in the population of
           42,660,297 claims.

Appendix B contains the details of our sample design and methodology.

For each of the 100 sampled claims, we:

         • reviewed the corresponding personal care provider’s documentation supporting the
           claim;

         • reviewed the corresponding HRA case file;

         • reviewed documentation from the physician ordering the personal care services to
           confirm whether a medical professional had examined the beneficiary within 30 days
           before the order was signed; and

         • visited the beneficiary, if available, associated with the claim to inquire about the
           personal care services he or she received and referred all quality-of-care issues
           identified by the beneficiary to our Office of Investigations.5

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

4
“Medicaid Payments to Home Care Providers While Recipients Were Hospitalized,” Office of the New York State
Comptroller, Division of State Government Accountability, Report 2006-S-77 (August 28, 2007).
5
Due to various reasons (i.e., the beneficiaries were deceased, had moved out of the State, or could not be located),
we were able to visit only 65 of the 100 beneficiaries.



                                                          4
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The State improperly claimed Federal Medicaid reimbursement for some personal care services
claims submitted by providers in New York City. Of the 100 claims in our random sample, 80
claims complied with Federal and State requirements, but 18 claims did not. We could not
determine if the remaining two claims, which involved services under the State’s CDPAP
program, complied with Federal and State requirements and are setting aside those claims for
resolution by CMS and the State. Of the 18 claims, 1 contained more than one deficiency.
Table 1 summarizes the deficiencies noted and the number of claims that contained each type of
deficiency.

                      Table 1: Summary of Deficiencies in Sampled Claims
                                                                         Number of
                            Type of Deficiency                       Unallowable Claims 6
     Medical professional did not examine the beneficiary within
      30 days before the order for personal care services was signed
      (medical record does not support examination date)                     8
     No nursing assessment                                                   4
     No nursing supervision                                                  4
     No physician’s order                                                    3

For two sample claims submitted under the CDPAP program, there were no applicable nursing
assessments. These two claims are being set aside for resolution by CMS and the State because
it is unclear whether State requirements apply to these claims.

These deficiencies occurred because the State did not adequately monitor New York City’s
personal care services program for compliance with certain Federal and State requirements.

Based on our sample results, we estimate that the State improperly claimed $275,327,274 in
Federal Medicaid reimbursement during our January 1, 2004, through December 31, 2006, audit
period.




6
    The total exceeds 18 because 1 claim contained more than one error.



                                                           5
MEDICAL PROFESSIONAL DID NOT EXAMINE THE BENEFICIARY WITHIN
30 DAYS BEFORE THE ORDER FOR SERVICES WAS SIGNED (MEDICAL RECORD
DOES NOT SUPPORT EXAMINATION DATE)

Pursuant to 18 NYCRR § 505.14(b)(3)(i), a medical professional is required to complete the
physician’s order for personal care services within 30 calendar days after conducting a medical
examination of the beneficiary. For 8 of the 100 claims in our sample, the required medical
professional did not examine the beneficiary within 30 calendar days before the physician’s
order was signed. 7

NO NURSING ASSESSMENT

Pursuant to 18 NYCRR § 505.14, authorizations for Level I and II services must include a
nursing assessment prepared by a registered professional nurse. 8 For 4 of the 100 claims in our
sample, HRA could not provide an applicable nursing assessment.

NO NURSING SUPERVISION

Pursuant to 18 NYCRR § 505.14(f), all persons providing Level I and II personal care services
are subject to supervision by a registered nurse. Supervisory nursing visits must be made at least
every 90 days except when the beneficiary is self-directing and his or her medical condition is
not expected to change. 9 In those cases, supervisory and nursing assessment visits may be
combined and conducted every 6 months. For 4 of the 100 claims in our sample, there was no
evidence that a registered nurse supervised the personal care services within the 6 months before
the date of the sample service. 10

NO PHYSICIAN’S ORDER

Pursuant to section 1905(a)(24) of the Act, implementing Federal regulations (42 CFR
§ 440.167(a)(1)), and 18 NYCRR § 505.14, personal care services must be authorized by a
physician. The physician’s order is part of an authorization package that must be completed
before the authorization and reauthorization of services. Of the 100 claims in our sample, 3 did
not have an applicable physician’s order before the authorization or reauthorization period of
personal care services.



7
 Although a medical examination date was noted on the physician’s order, we based our disallowances for this
category on the fact that the underlying medical record for each claim did not support the examination date.
8
 Reauthorization for Level I services does not require a nursing assessment if the physician’s order indicates that the
beneficiary’s medical condition is unchanged.
9
 Self-directing means that the beneficiary is capable of making choices about his or her activities of daily living,
understanding the impact of the choice, and assuming responsibility for the results of the choice.
10
  All four claims involved Level I services. HRA is responsible for the performance of nursing supervision for these
services.


                                                           6
CONSUMER DIRECTED PERSONAL ASSISTANCE PROGRAM CLAIMS

New York Social Services Law 365-f established CDPAP in 1996. The State has not issued
specific regulations applicable to the CDPAP. Of the 100 claims in our sample, 2 were CDPAP
claims for which there were no applicable nursing assessments. We are setting aside these
claims because it is unclear whether State requirements regarding nursing assessments
(18 NYCRR § 505.14) apply to CDPAP claims.

CAUSE OF UNALLOWABLE CLAIMS

The State did not adequately monitor New York City’s personal care services program for
compliance with certain Federal and State requirements. The State conducts periodic onsite
monitoring visits of its local social services districts to review case records for compliance with
applicable State regulations. However, during our audit period, the State did not conduct any
monitoring visits of New York City’s personal care services program, which accounts for over
80 percent of the costs of the State’s personal care services program.

ESTIMATION OF THE UNALLOWABLE AMOUNT

Of the 100 personal care services claims sampled, 18 were not made in accordance with Federal
and State requirements. Based on our sample results, we estimate that the State improperly
claimed between $275,327,274 and $625,112,147 in Federal Medicaid reimbursement from
January 1, 2004, through December 31, 2006. If CMS determines that the 2 set-aside claims are
unallowable, we will add the unallowable amounts for these 2 claims to the 18 questioned claims
and will revise the estimate of the 20 sample error claims. The details of our sample results and
estimates are shown in Appendix C.

RECOMMENDATIONS

We recommend that the State:

       •   refund $275,327,274 to the Federal Government,

       •   work with CMS to resolve the two CDPAP claims,

       •   improve its monitoring of New York City’s personal care services program to ensure
           compliance with Federal and State requirements, and

       •   promulgate specific regulations related to claims submitted under the CDPAP.

NEW YORK STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State disagreed with our first recommendation (financial
disallowance) and agreed with our remaining recommendations. The State also disagreed with
many elements of our findings. The State indicated that the claims in our sample were


                                                 7
“substantially in compliance” with Federal regulations and that DOH social services districts
throughout the State strive to meet the State’s regulations. In addition, the State provided us with
additional documentation for certain sample claims.

After reviewing the State’s comments on our draft report and additional documentation, we
revised our findings and modified our statistical estimates accordingly. The State’s comments
appear in their entirety as Appendix D.

Medical Professional Did Not Examine the Beneficiary Within 30 Days Before the
Order for Personal Care Was Signed

State Comments

The State indicated that HRA files contained physician orders for most sample claims that we
indicated lacked physician orders signed 30 days before the orders for personal care were signed.
In addition, the State indicated that HRA’s physician orders capture the dates a beneficiary
visited the physicians and the dates of the physicians’ signatures. The State noted that it relies on
the examination date appearing on the order. The State further indicated that the deficiencies we
identified were based on unsuccessful attempts at obtaining an oral or written confirmation from
the ordering physician that a physical examination occurred on the date indicated on the
physician order form.

Office of Inspector General Response

We found dated orders for personal care for the eight beneficiaries in this category. The
beneficiary examination dates indicated on these forms was fewer than 30 days before the dates
of the orders for 7 of the 8 claims and greater than 30 days for 1 claim. Although medical
examination dates were noted on the physicians’ orders, we disallowed claims when the
underlying medical records for the claims did not support the examination dates. We determined
that a sample claim was improper if the beneficiary’s medical records showed that the medical
examination had not occurred within 60 calendar days before the date the physician’s order was
signed. We maintain that 8 of the 100 claims in our sample were unallowable because medical
professionals did not examine the beneficiaries within 30 calendar days before the physicians’
orders were signed. Our determination for each of these claims was based on a review of the
beneficiaries’ medical records—not on unsuccessful attempts at obtaining written or oral
confirmation from the ordering physicians.

No Nursing Assessment

State Comments

The State indicated that, for one sample claim, the beneficiary’s condition was unchanged and,
therefore, the beneficiary did not need another nursing assessment. For a second sample claim,
the State indicated that the case was “open to” New York City’s adult protective services
program and not managed by HRA.




                                                 8
Office of Inspector General Response

The first sample claim was a Level II case, and Level II cases require a nursing assessment for
reauthorization of services. Regarding the second sample claim, New York City’s adult
protective services program is a unit within HRA. Therefore, the program is required to follow
the same regulations as HRA’s personal care program. We maintain that 4 of the 100 claims in
our sample were unallowable because HRA could not provide applicable nursing assessments.

No Nursing Supervision

State Comments

The State indicated that it previously advised us that its nursing supervision requirements were
inadvertently omitted from HRA’s 2003 contracts for Level I personal care services. The State
indicated that it revised its Level I contractor applications after being notified of this omission in
2006; however, the nursing supervision requirements were not implemented until 2008. The
State did not dispute that the four claims in the category were in error.

No Physician’s Order

State Comments

The State indicated that two of the three sample claims identified as lacking physicians’ orders
are “open to” New York City’s adult protective services program and not managed by HRA. In
addition, the State indicated that original physicians’ orders for the associated beneficiaries
identified chronic medical conditions requiring ongoing care to remain at home. The State also
indicated that, in accordance with Federal fair hearing requirements, HRA cannot discontinue
services on the basis of not having received a new physician’s order without first providing
timely and adequate notice to the beneficiary.

Office of Inspector General Response

New York City’s adult protective services program is a unit within HRA. Therefore, the
program is required to follow the same regulations as HRA’s personal care program. We
maintain that 3 of the 100 claims in our sample were unallowable because physicians’ orders
were not provided.




                                                  9
                    OTHER MATTER: BENEFICIARY-IDENTIFIED PROBLEMS
                            WITH PERSONAL CARE SERVICES

We interviewed 65 of the 100 sampled beneficiaries to determine whether quality-of-care issues
existed, the service type and frequency, and whether any service-related problems existed. We
did not interview the remaining 35 sampled beneficiaries because the beneficiaries were
deceased, had moved out of the State, or could not be located. Of the 65 beneficiaries
interviewed, 40 identified quality-of-care problems with their personal care services aide,
problems with the personal care services agency, or other problems. 11 Table 2 summarizes the
problems identified and the number of beneficiaries who encountered each type of problem. 12

                       Table 2: Problems Identified in Beneficiary Interviews
                                                                            Number of
                             Type of Problem                               Beneficiaries 13
     Personal care aide engaged in unrelated activities                         25
     Plan of care not followed by the personal care aide                        19
     Problems with the personal care agency                                     14
     Theft of property by the personal care aide                                 9
     Beneficiary did not receive a plan of care                                  9
     Physical abuse/threats by the personal care aide                            7
     Beneficiary abandonment by the personal care aide                           3
     Other                                                                      16

Below are examples of some of the problems identified in our interviews.

PERSONAL CARE AIDE ENGAGED IN UNRELATED ACTIVITIES

Of the 65 beneficiaries we interviewed, 25 indicated that a personal care services aide engaged in
activities unrelated to beneficiary care while on duty. For example, beneficiaries indicated that,
during duty hours, aides would sleep, disappear for excessive periods of time, talk on their cell
phones, show up briefly before leaving, or leave to shop for themselves. One beneficiary stated
an aide left 2.5 hours early and forged the beneficiary’s signature on the timesheet.

THEFT OF PROPERTY

Of the 65 beneficiaries we interviewed, 9 indicated that a personal care services aide stole
property from them. Among items allegedly stolen were a silver-covered Bible, kitchen utensils,
11
  We were unable to determine if any of the identified problems occurred on the specific service date drawn in our
sample. For some beneficiaries, we were able to determine that the problems identified occurred during our audit
period or that the aide on duty on the service date we reviewed was the cause of the beneficiary’s problems. Not all
of the identified problems occurred during our 3-year audit period.
12
     We referred all quality-of-care issues identified by the 40 beneficiaries to our Office of Investigations.
13
     The total exceeds 40 because 25 beneficiaries identified more than one problem.



                                                              10
gold and silver coins, a ring valued at $300, a $250 money order, and cash. One beneficiary
indicated that she filed a police report alleging that an aide stole a diamond necklace and a ring.

PHYSICAL ABUSE OR THREATS OF PHYSICAL ABUSE

Of the 65 beneficiaries we interviewed, 7 indicated that a personal care services aide abused or
threatened to abuse them. For example, one beneficiary indicated that she was robbed by an aide
who had threatened her with a knife. 14 She further indicated that some aides would “get rough”
with her by pinching her after she would fall or trip. A second beneficiary indicated that she
filed a complaint against an aide for abusive language. According to the beneficiary, after filing
the complaint, both the aide and the aide’s supervisor visited the beneficiary in her home,
cornered her, and tried to intimidate her into backing down from the complaint. Other examples
of abuse alleged by beneficiaries included an aide biting a beneficiary’s finger and physical
retaliation by an aide against a beneficiary who filed a complaint.

BENEFICIARY ABANDONMENT

Of the 65 beneficiaries we interviewed, 3 indicated that a personal care services aide abandoned
them. One indicated that her aide abandoned her on two occasions—in the street and in the
subway—because the aide’s shift had ended and the aide wanted to go home. A second
beneficiary indicated that her aide abandoned her in a large retail store, and a third beneficiary
indicated that her aide left her unattended at home.




14
     The beneficiary indicated that the aide did not physically display a knife.


                                                             11
APPENDIXES
                                                                                    APPENDIX A


                FEDERAL AND STATE REQUIREMENTS RELATED TO
                         PERSONAL CARE SERVICES

•   Section 1905(a)(24) of the Social Security Act and implementing Federal regulations
    (42 CFR § 440.167) permit States to elect, as an optional Medicaid benefit, personal care
    services furnished to an individual who is not an inpatient or resident of a hospital, nursing
    facility, intermediate care facility for persons with mental retardation, or institution for
    mental disease. The statute specifies that personal care services must be: (1) authorized for
    an individual by a physician within a plan of treatment or in accordance with a service plan
    approved by a State; (2) provided by an individual who is qualified to provide such services
    and who is not a member of the individual’s family; and (3) furnished in a home or other
    location.

•   Federal regulations (42 CFR § 440.167(a)(1)) and Title 18 of the New York Compilation of
    Codes, Rules, & Regulations (NYCRR) § 505.14 specify that personal care services must be
    authorized by a physician. The physician’s order is part of an authorization package that is
    required to be completed before the initial authorization and reauthorization of services.

•   Office of Management and Budget Circular A-87 establishes principles and standards for
    determining allowable costs incurred by State and local governments under Federal awards.
    Section C.1.c. of Attachment A of the Circular provides that to be allowable, costs must be
    authorized or not prohibited by State or local laws or regulations.

•   Medical professionals must complete the physician’s order for personal care services within
    30 calendar days after conducting a medical examination of the beneficiary (18 NYCRR
    § 505.14(b)(3)(i)). A physician must sign the physician’s order and certify that the recipient
    can be cared for at home.

•   All persons providing Level I and II personal care services must be subject to nursing
    supervision (18 NYCRR § 505.14(f)). This supervision must ensure that the beneficiary’s
    needs are appropriately met by the case management agency’s (Human Resources
    Administration) authorization for the level, amount, frequency, and duration of services and
    that the person providing services is competent and safely performing the tasks specified in
    the plan of care. Supervisory nursing visits must be made at least every 90 days except when
    the beneficiary is self-directing and his or her medical condition is not expected to change.
    In those cases, supervisory and nursing assessment visits may be combined and conducted
    every 6 months.

•   The initial authorization for Level I and II services must include a nursing assessment
    prepared by a registered professional nurse (18 NYCRR § 505.14(b)(2)(iii)).
    Reauthorization for Level I services does not require a nursing assessment if the physician’s
    order indicates that the beneficiary’s medical condition is unchanged (18 NYCRR
    § 505.14(b)(3)(ix)(a)). The nursing assessment shall include the following: (1) a review and
    interpretation of the physician’s order, (2) the primary diagnosis code, (3) an evaluation of
    the functions and tasks required by the beneficiary, (4) the degree of assistance required,
    (5) the development of a plan of care, and (6) recommendations for authorization of services
    (18 NYCRR § 505.14(b)(3)(iii)(b)).
                                                                                APPENDIX B


                        SAMPLE DESIGN AND METHODOLOGY

Population

The population was personal care services claim lines submitted by 100 providers in New York
City during our January 1, 2004, through December 31, 2006, audit period that were claimed for
Federal Medicaid reimbursement by the State.

Sampling Frame

The sampling frame was a computer file containing 42,660,297 detailed claim lines for personal
care services submitted by 100 providers in New York City during our audit period. The total
Medicaid reimbursement for the 42,660,297 claim lines was $4,962,396,539 ($2,499,866,017
Federal share). The Medicaid claim lines were extracted from the paid claims’ files maintained
at the Medicaid Management Information System fiscal agent.

Sampling Unit

The sampling unit was an individual Federal Medicaid claim line.

Sample Design

We used a simple random sample to evaluate the population of Federal Medicaid claim lines.

Sample Size

We selected a sample size of 100 claim lines.

Source of Random Numbers

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, statistical software, RAT-STATS. We used its random number generator for selecting
our random sample items.

Method for Selecting Sample Items

We sequentially numbered the 42,660,297 detailed claim lines. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

Estimation Methodology

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the improper claiming.
                                                                          APPENDIX C


                      SAMPLE RESULTS AND ESTIMATES


                              Sample Details and Results
                                                                           Value of
                                                            Number
                Value of                                                  Unallowable
                                           Value of             of
                 Frame                                                      Claims
Claims in                     Sample        Sample         Unallowable
                (Federal                                                   (Federal
 Frame                         Size     (Federal Share)      Claims
                 Share)                                                     Share)
42,660,297   $2,499,866,017     100          $6,231            18           $1,055


                                       Estimates
               (Limits Calculated for a 90-Percent Confidence Interval)

                                         Estimated Unallowable
                                                 Costs
                     Point Estimate               $450,219,710
                     Lower Limit                  $275,327,274
                     Upper Limit                  $625,112,147
APPENDIX D
  Page 1 of 14
APPENDIX D
  Page 2 of 14
APPENDIX D
  Page 3 of 14
APPENDIX D
  Page 4 of 14
APPENDIX D
  Page 5 of 14
APPENDIX D
  Page 6 of 14
APPENDIX D
  Page 7 of 14
APPENDIX D
  Page 8 of 14
APPENDIX D
  Page 9 of 14
APPENDIX D
 Page 10 of 14
APPENDIX D
 Page 11 of 14
APPENDIX D
 Page 12 of 14
APPENDIX D
 Page 13 of 14
APPENDIX D
 Page 14 of 14
